Case: 4:18-cv-01297-JRA Doc #: 1 Filed: 06/06/18 1 of 6. PageID #: 1

Appendix D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
WALTER P. VARGO, JR.
4865 Shanks Phalanx Rd.
Southington, OH 44470-9534
Plaintiff
vs.
D & M TOURS INC.
117 East 7th Street
Patterson, NJ 07524
and
JOSE ROMAN
PO Box 1082
71 Hopper St., Floor 1
Patterson, NJ 07544
and
FEDEX, INC.
c/o C.T. CORP
1300 East Ninth St.
Cleveland, OH 44114

and
WILLIAM A. STAUFFER
125 Fieldstone Dr.
Carlisle, PA 17015
and
SARAH MORRISON, Administrator
Ohio Bureau of Workers' Compensation
242 Federal Plaza, W., Suite 200
Youngstown, OH 44503-1206
and

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. _______________

JUDGE _________________

COMPLAINT
JURY DEMAND ENDORSED HEREON

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Page 1 of 9

Case: 4:18-cv-01297-JRA Doc #: 1 Filed: 06/06/18 2 of 6. PageID #: 2

L.T. HARNETT TRUCKING, INC.
c/o DAVID L. HARNETT
Its Statutory Agent
7431 State Route 7
Kinsman, OH 44428
Defendants

)
)
)
)
)
)
)

NATURE OF THE ACTION
1. This is a negligence action for damages against drivers and owners of motor vehicles
stemming from a collision with plaintiff’s tanker trailer on vehicle Interstate Route 78, in Saucon
Township, Northampton County, Pennsylvania, on June 7, 2016.
JURISDICTION AND VENUE
2. The matter in controversy is in excess of the sum of $75,000, exclusive of interest and
costs, and pursuant to 28 U.S.C. §1332(a)(1), it is brought by Plaintiff, WALTER P. VARGO,
JR., a citizen of Southington, Trumbull County, Ohio, against Defendant D & M TOURS, INC.,
a business in New Jersey; JOSE ROMAN, a citizen of New Jersey; FEDEX, INC., a company
doing business in Youngstown, Mahoning County, Ohio; WILLIAM A. STAUFFER, a citizen of
Pennsylvania; SARAH MORRISON, Administrator of Ohio Bureau of Workers’ Compensation
with a Regional Office in Youngstown, Mahoning County, Ohio; and L.T. HARNETT
TRUCKING, INC., a company doing business in Kinsman, Trumbull County, Ohio.
3. Pursuant to 28 U.S.C. §1391, venue for this action lies in the United States District
Court for the Northern District of Ohio, the district where Defendant FEDEX, INC., and
Defendant L.T. HARNETT are doing business; the district where Defendant SARAH
MORRISON, Administrator of Ohio Bureau of Workers’ Compensation, has a Regional Office
that administered a companion workers’ compensation claim for Plaintiff; and the district where

Page 2 of 9

Case: 4:18-cv-01297-JRA Doc #: 1 Filed: 06/06/18 3 of 6. PageID #: 3

Plaintiff resides and where he received the bulk of his treatment, including surgery, from his
injuries in this accident, and where his medical providers are located.
PARTIES
4. Plaintiff WALTER P. VARGO, JR., is an individual residing in Southington,
Trumbull County, Ohio, and at all times relevant herein he was employed by Defendant L. T.
HARNETT TRUCKING, INC., and was injured in the course of and out of that employment.
5. Defendant D & M TOURS, INC., is a corporation engaged in the school busing
business, and is organized in the state of New Jersey.
6. Defendant JOSE ROMAN is an individual residing in Patterson, New Jersey, and at all
relevant times herein, he was employed as a bus driver by Defendant D & M TOURS, INC., and
he was acting on behalf of this employer and in furtherance of its business.
7. Defendant FEDEX, INC., is a corporation engaged in the package delivery business in
Youngstown, Mahoning County, Ohio, and is organized under the laws of the State of Delaware.
8. Defendant WILLIAM A. STAUFFER is an individual residing in Carlisle
Pennsylvania, and at all relevant times herein he was employed as a truck driver for Defendant
FEDEX, INC, and was acting on behalf of this employer and in furtherance of its business.
9. Defendant SARAH MORRISON is the Administrator of the Ohio Bureau of Workers’
Compensation that has a Regional Office in Youngstown, Mahoning County, Ohio, that
administered to Plaintiff’s companion Worker’s Compensation claim (No. 16-822703) and has
paid Plaintiff considerable sums for treatment and care, including wage loss compensation, all
stemming from his injuries in the accident that is the subject of this lawsuit; and thus, has an
interest in this case.

Page 3 of 9

Case: 4:18-cv-01297-JRA Doc #: 1 Filed: 06/06/18 4 of 6. PageID #: 4

10. Defendant L.T. HARNETT TRUCKING, INC., is a corporation engaged in the
trucking business in Kinsman, Trumbull County, Ohio, is organized under the laws of the State
of Ohio; was the owner of the tanker trailer driven by Plaintiff; has paid Plaintiff for directly
wage loss compensation and has incurred other expenses related to Plaintiff’s Ohio Workers’
Compensation Claim, No. 16-8 to 2703; and thus, has an interest in this case.

COUNT I - NEGLIGENCE
11. Plaintiff incorporates by reference the allegations contained in paragraphs one (1)
through ten (10) of the Complaint.
12. On or about June 7, 2016, Plaintiff was employed by Defendant L.T. HARNETT
TRUCKING, INC., and was driving a tanker trailer owned by this defendant westbound on I-78
in Lower Saucon Township, Northampton County, Pennsylvania, when Plaintiff was hit and
driven off the roadway by the tractor-trailer driven by Defendant WILLIAM A. STAUFFER,
and owned by Defendant FEDEX, INC., who may have been trying to avoid a school bus driven
by Defendant JOSE ROMAN, and owned by of Defendant D & M TOURS, INC., who was
abruptly slowing down and changing lanes.
13. As a direct and proximate result of the negligence of Defendants JOSE ROMAN
and D & M TOURS, INC., and the negligence of WILLIAM A. STAUFFER and FEDEX INC.,
Plaintiff received serious personal injuries, some or all of which are permanent; has suffered
physical pain and mental distress; has suffered a permanent diminished capacity to enjoy life; has
sustained a diminished earning capacity; has incurred medical bills for treatment and care, and
will continue to do so in the future; and will be compelled to hire additional services.

Page 4 of 9

Case: 4:18-cv-01297-JRA Doc #: 1 Filed: 06/06/18 5 of 6. PageID #: 5

COUNT II – AGENCY
14. Plaintiff incorporates by reference the allegations contained in paragraphs one (1)
through fhirteen (13) of the Complaint.
15. Plaintiff is informed and believes that Defendant JOSE ROMAN was, at the time of
the accident, an agent and/or employee of Defendant D & M TOURS, INC., acting within the
scope and course of his employment.
16. As a proximate result of Defendant D & M TOURS, INC., agency/employment
relations with Defendant JOSE ROMAN, Plaintiff has suffered permanent injuries and has
incurred medical expenses in excess of $75,000.
COUNT III – AGENCY
17. Plaintiff incorporates by reference the allegations contained in paragraphs one (1)
through sixteen (16) of the Complaint.
18. Plaintiff is informed and believes that Defendant WILLIAM A. STAUFFER was, at
the time of the accident, an agent and/or employee of Defendant FEDEX, INC., acting within the
scope and course of his employment.
19. As a proximate result of Defendant FEDEX, INC., agency/employment relations
with Defendant JOSE ROMAN, Plaintiff has suffered permanent injuries and has incurred
medical expenses in excess of $75,000.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff prays for judgment against Defendants JOSE ROMAN, D & M
TOURS, INC., WILLIAM A. STAUFFER, and FEDEX INC., jointly and/or severally, in an
amount in excess of SEVENTY-FIVE THOUSAND DOLLARS ($75,000.00) to compensate
him for his injuries; prays that Defendant SARAH MORRISON Administrator of Ohio Bureau

Page 5 of 9

Case: 4:18-cv-01297-JRA Doc #: 1 Filed: 06/06/18 6 of 6. PageID #: 6

of Workers’ Compensation and Defendant L. T. HARNETT TRUCKING, INC., appear and
assert their interests in the outcome of this case; Plaintiff prays for payment of his costs,
prejudgment interest, and such other and further relief as the court deems just and proper.
PLAINTIFF HEREBY DEMANDS TRIAL BY JURY.
Respectfully submitted,

/s/ Irene K. Makridis
___________________________
Irene K. Makridis (#16760, Ohio)
Counsel for Plaintiff
155 S. Park Ave., Suite 160
Warren, Ohio 44481
Tel.: 330-394-1587
Fax: 330-394-3070
office@makridislaw.com

Page 6 of 9

Case: 4:18-cv-01297-JRA Doc #: 1-1 Filed: 06/06/18 1 of 3. PageID #: 7

CIVIL COVER SHEET

JS 44 (Rev. 06/17)

The JS 44 civil cover sheet and the information contained herein neither replace nor supplement the filing and service of pleadings or other papers as required by law, except as
provided by local rules of court. This form, approved by the Judicial Conference of the United States in September 1974, is required for the use of the Clerk of Court for the
purpose of initiating the civil docket sheet. (SEE INSTRUCTIONS ON NEXT PAGE OF THIS FORM.)

I. (a) PLAINTIFFS

DEFENDANTS

WALTER P. VARGO, JR.

D & M TOURS, INC.; JOSE ROMAN; FEDEX INC.; WILLIAM A.
STAUFFER; SARAH MORRISON, ADMINISTRATOR OHIO BWC;
and L.T. HARNETT TRUCKING, INC.

(b) County of Residence of First Listed Plaintiff

Trumbull

County of Residence of First Listed Defendant

(EXCEPT IN U.S. PLAINTIFF CASES)

(IN U.S. PLAINTIFF CASES ONLY)
IN LAND CONDEMNATION CASES, USE THE LOCATION OF
THE TRACT OF LAND INVOLVED.

NOTE:

(c) Attorneys (Firm Name, Address, and Telephone Number)

Attorneys (If Known)

Irene K. Makridis, Makridis Law Firm, LLC, 155 S. Park Ave., Suite 160,
Warren, Ohio 44481, Tel. 330-394-1587; Fax 330-394-3070,
office@makridislaw.com

II. BASIS OF JURISDICTION (Place an “X” in One Box Only)
u 1

U.S. Government
Plaintiff

u 3

Federal Question
(U.S. Government Not a Party)

u 2

U.S. Government
Defendant

u 4

Diversity
(Indicate Citizenship of Parties in Item III)

III. CITIZENSHIP OF PRINCIPAL PARTIES (Place an “X” in One Box for Plaintiff
(For Diversity Cases Only)
PTF
Citizen of This State
u 1

DEF
u 1

Citizen of Another State

u 2

u

2

Incorporated and Principal Place
of Business In Another State

u 5

u 5

Citizen or Subject of a
Foreign Country

u 3

u

3

Foreign Nation

u 6

u 6

IV. NATURE OF SUIT (Place an “X” in One Box Only)
CONTRACT
u
u
u
u
u
u
u
u
u
u
u
u

u
u
u
u
u
u
u
u
u
u

u
u
u
u
u
u

Click here for: Nature of Suit Code Descriptions.

TORTS

110 Insurance
120 Marine
130 Miller Act
140 Negotiable Instrument
150 Recovery of Overpayment
& Enforcement of Judgment
151 Medicare Act
152 Recovery of Defaulted
Student Loans
(Excludes Veterans)
153 Recovery of Overpayment
of Veteran’s Benefits
160 Stockholders’ Suits
190 Other Contract
195 Contract Product Liability
196 Franchise

REAL PROPERTY
210 Land Condemnation
220 Foreclosure
230 Rent Lease & Ejectment
240 Torts to Land
245 Tort Product Liability
290 All Other Real Property

u
u
u
u
u
u
u

PERSONAL INJURY
310 Airplane
315 Airplane Product
Liability
320 Assault, Libel &
Slander
330 Federal Employers’
Liability
340 Marine
345 Marine Product
Liability
350 Motor Vehicle
355 Motor Vehicle
Product Liability
360 Other Personal
Injury
362 Personal Injury Medical Malpractice
CIVIL RIGHTS
440 Other Civil Rights
441 Voting
442 Employment
443 Housing/
Accommodations
445 Amer. w/Disabilities Employment
446 Amer. w/Disabilities Other
448 Education

and One Box for Defendant)
PTF
DEF
Incorporated or Principal Place
u 4
u 4
of Business In This State

FORFEITURE/PENALTY

PERSONAL INJURY
u 365 Personal Injury Product Liability
u 367 Health Care/
Pharmaceutical
Personal Injury
Product Liability
u 368 Asbestos Personal
Injury Product
Liability
PERSONAL PROPERTY
u 370 Other Fraud
u 371 Truth in Lending
u 380 Other Personal
Property Damage
u 385 Property Damage
Product Liability
PRISONER PETITIONS
Habeas Corpus:
u 463 Alien Detainee
u 510 Motions to Vacate
Sentence
u 530 General
u 535 Death Penalty
Other:
u 540 Mandamus & Other
u 550 Civil Rights
u 555 Prison Condition
u 560 Civil Detainee Conditions of
Confinement

u 625 Drug Related Seizure
of Property 21 USC 881
u 690 Other

LABOR
u 710 Fair Labor Standards
Act
u 720 Labor/Management
Relations
u 740 Railway Labor Act
u 751 Family and Medical
Leave Act
u 790 Other Labor Litigation
u 791 Employee Retirement
Income Security Act

BANKRUPTCY
u 422 Appeal 28 USC 158
u 423 Withdrawal
28 USC 157
PROPERTY RIGHTS
u 820 Copyrights
u 830 Patent
u 835 Patent - Abbreviated
New Drug Application
u 840 Trademark
SOCIAL SECURITY
u 861 HIA (1395ff)
u 862 Black Lung (923)
u 863 DIWC/DIWW (405(g))
u 864 SSID Title XVI
u 865 RSI (405(g))

FEDERAL TAX SUITS
u 870 Taxes (U.S. Plaintiff
or Defendant)
u 871 IRS—Third Party
26 USC 7609

IMMIGRATION
u 462 Naturalization Application
u 465 Other Immigration
Actions

OTHER STATUTES
u 375 False Claims Act
u 376 Qui Tam (31 USC
3729(a))
u 400 State Reapportionment
u 410 Antitrust
u 430 Banks and Banking
u 450 Commerce
u 460 Deportation
u 470 Racketeer Influenced and
Corrupt Organizations
u 480 Consumer Credit
u 490 Cable/Sat TV
u 850 Securities/Commodities/
Exchange
u 890 Other Statutory Actions
u 891 Agricultural Acts
u 893 Environmental Matters
u 895 Freedom of Information
Act
u 896 Arbitration
u 899 Administrative Procedure
Act/Review or Appeal of
Agency Decision
u 950 Constitutionality of
State Statutes

V. ORIGIN (Place an “X” in One Box Only)
u 1 Original
Proceeding

u 2 Removed from
State Court

u 3

Remanded from
Appellate Court

u 4 Reinstated or
Reopened

u 5 Transferred from
Another District

u 6 Multidistrict
Litigation Transfer
(specify)
Cite the U.S. Civil Statute under which you are filing (Do not cite jurisdictional statutes unless diversity):

u 8 Multidistrict
Litigation Direct File

28 U.S.C.A. §1332(a)(1); 28 U.S.C. §1391

VI. CAUSE OF ACTION Brief description of cause:

u CHECK IF THIS IS A CLASS ACTION
VII. REQUESTED IN
UNDER RULE 23, F.R.Cv.P.
COMPLAINT:
VIII. RELATED CASE(S)
(See instructions):
IF ANY
JUDGE
DATE

CHECK YES only if demanded in complaint:
u Yes
u No
JURY DEMAND:

DEMAND $

75,000.00

DOCKET NUMBER

SIGNATURE OF ATTORNEY OF RECORD

/s/ Irene K. Makridis

06/06/2018
FOR OFFICE USE ONLY
RECEIPT #

AMOUNT

APPLYING IFP

Page 7 of 9

JUDGE

MAG. JUDGE

Case: 4:18-cv-01297-JRA Doc #: 1-1 Filed: 06/06/18 2 of 3. PageID #: 8

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
I.

Civil Categories: (Please check one category only).

1. ✔
2.
3.

General Civil
Administrative Review/Social Security
Habeas Corpus Death Penalty

*If under Title 28, §2255, name the SENTENCING JUDGE:
CASE NUMBER:

II.

RELATED OR REFILED CASES. See LR 3.1 which provides in pertinent part: "If an action is filed or removed to this Court
and assigned to a District Judge after which it is discontinued, dismissed or remanded to a State court, and
subsequently refiled, it shall be assigned to the same Judge who received the initial case assignment without regardfor
the place of holding court in which the case was refiled. Counsel or a party without counsel shall be responsible for
bringing such cases to the attention of the Court by responding to the questions included on the Civil Cover Sheet."
This action

LVRELATED to another PENDINGcivil case

LVDREFILEDFDVH

ZDV35(9,286/<5(0$1'('

If applicable, please indicate on page 1 in section VIII, the name of the Judge and case number.

III.

In accordance with Local Civil Rule 3.8, actions involving counties in the Eastern Division shall be filed at any of the
divisional offices therein. Actions involving counties in the Western Division shall be filed at the Toledo office. For the
purpose of determining the proper division, and for statistical reasons, the following information is requested.
ANSWER ONE PARAGRAPH ONLY. ANSWER PARAGRAPHS 1 THRU 3 IN ORDER. UPON FINDING WHICH
PARAGRAPH APPLIES TO YOUR CASE, ANSWER IT AND STOP.
(1)
Resident defendant. If the defendant resides in a county within this district, please set forth the name of such
county
COUNTY:
Corporation For the purpose of answering the above, a corporation is deemed to be a resident of that county in which
it has its principal place of business in that district.
Non-Resident defendant. If no defendant is a resident of a county in this district, please set forth the county
wherein the cause of action arose or the event complained of occurred.
COUNTY:
(2)

Trumbull, Mahoning

(3)

Other Cases. If no defendant is a resident of this district, or if the defendant is a corporation not having a principle
place of business within the district, and the cause of action arose or the event complained of occurred outside
this district, please set forth the county of the plaintiff's residence.
COUNTY:

IV.

The Counties in the Northern District of Ohio are divided into divisions as shown below. After the county is
determined in Section III, please check the appropriate division.
EASTERN DIVISION
AKRON
CLEVELAND

✔

YOUNGSTOWN

(Counties: Carroll, Holmes, Portage, Stark, Summit, Tuscarawas and Wayne)
(Counties: Ashland, Ashtabula, Crawford, Cuyahoga, Geauga, Lake,
Lorain, Medina and Richland)
(Counties: Columbiana, Mahoning and Trumbull)

WESTERN DIVISION
TOLEDO

(Counties: Allen, Auglaize, Defiance, Erie, Fulton, Hancock, Hardin, Henry,
Huron, Lucas, Marion, Mercer, Ottawa, Paulding, Putnam, Sandusky, Seneca
VanWert, Williams, Wood and Wyandot)
Page 8 of 9

JS 44 Reverse (Rev. 06/17)

Case: 4:18-cv-01297-JRA Doc #: 1-1 Filed: 06/06/18 3 of 3. PageID #: 9

INSTRUCTIONS FOR ATTORNEYS COMPLETING CIVIL COVER SHEET FORM JS 44
Authority For Civil Cover Sheet
The JS 44 civil cover sheet and the information contained herein neither replaces nor supplements the filings and service of pleading or other papers as
required by law, except as provided by local rules of court. This form, approved by the Judicial Conference of the United States in September 1974, is
required for the use of the Clerk of Court for the purpose of initiating the civil docket sheet. Consequently, a civil cover sheet is submitted to the Clerk of
Court for each civil complaint filed. The attorney filing a case should complete the form as follows:
I.(a)
(b)
(c)

Plaintiffs-Defendants. Enter names (last, first, middle initial) of plaintiff and defendant. If the plaintiff or defendant is a government agency, use
only the full name or standard abbreviations. If the plaintiff or defendant is an official within a government agency, identify first the agency and
then the official, giving both name and title.
County of Residence. For each civil case filed, except U.S. plaintiff cases, enter the name of the county where the first listed plaintiff resides at the
time of filing. In U.S. plaintiff cases, enter the name of the county in which the first listed defendant resides at the time of filing. (NOTE: In land
condemnation cases, the county of residence of the "defendant" is the location of the tract of land involved.)
Attorneys. Enter the firm name, address, telephone number, and attorney of record. If there are several attorneys, list them on an attachment, noting
in this section "(see attachment)".

II.

Jurisdiction. The basis of jurisdiction is set forth under Rule 8(a), F.R.Cv.P., which requires that jurisdictions be shown in pleadings. Place an "X"
in one of the boxes. If there is more than one basis of jurisdiction, precedence is given in the order shown below.
United States plaintiff. (1) Jurisdiction based on 28 U.S.C. 1345 and 1348. Suits by agencies and officers of the United States are included here.
United States defendant. (2) When the plaintiff is suing the United States, its officers or agencies, place an "X" in this box.
Federal question. (3) This refers to suits under 28 U.S.C. 1331, where jurisdiction arises under the Constitution of the United States, an amendment
to the Constitution, an act of Congress or a treaty of the United States. In cases where the U.S. is a party, the U.S. plaintiff or defendant code takes
precedence, and box 1 or 2 should be marked.
Diversity of citizenship. (4) This refers to suits under 28 U.S.C. 1332, where parties are citizens of different states. When Box 4 is checked, the
citizenship of the different parties must be checked. (See Section III below; NOTE: federal question actions take precedence over diversity
cases.)

III.

Residence (citizenship) of Principal Parties. This section of the JS 44 is to be completed if diversity of citizenship was indicated above. Mark this
section for each principal party.

IV.

Nature of Suit. Place an "X" in the appropriate box. If there are multiple nature of suit codes associated with the case, pick the nature of suit code
that is most applicable. Click here for: Nature of Suit Code Descriptions.

V.

Origin. Place an "X" in one of the seven boxes.
Original Proceedings. (1) Cases which originate in the United States district courts.
Removed from State Court. (2) Proceedings initiated in state courts may be removed to the district courts under Title 28 U.S.C., Section 1441.
When the petition for removal is granted, check this box.
Remanded from Appellate Court. (3) Check this box for cases remanded to the district court for further action. Use the date of remand as the filing
date.
Reinstated or Reopened. (4) Check this box for cases reinstated or reopened in the district court. Use the reopening date as the filing date.
Transferred from Another District. (5) For cases transferred under Title 28 U.S.C. Section 1404(a). Do not use this for within district transfers or
multidistrict litigation transfers.
Multidistrict Litigation – Transfer. (6) Check this box when a multidistrict case is transferred into the district under authority of Title 28 U.S.C.
Section 1407.
Multidistrict Litigation – Direct File. (8) Check this box when a multidistrict case is filed in the same district as the Master MDL docket.
PLEASE NOTE THAT THERE IS NOT AN ORIGIN CODE 7. Origin Code 7 was used for historical records and is no longer relevant due to
changes in statue.

VI.

Cause of Action. Report the civil statute directly related to the cause of action and give a brief description of the cause. Do not cite jurisdictional
statutes unless diversity. Example: U.S. Civil Statute: 47 USC 553 Brief Description: Unauthorized reception of cable service

VII.

Requested in Complaint. Class Action. Place an "X" in this box if you are filing a class action under Rule 23, F.R.Cv.P.
Demand. In this space enter the actual dollar amount being demanded or indicate other demand, such as a preliminary injunction.
Jury Demand. Check the appropriate box to indicate whether or not a jury is being demanded.

VIII. Related Cases. This section of the JS 44 is used to reference related pending cases, if any. If there are related pending cases, insert the docket
numbers and the corresponding judge names for such cases.
Date and Attorney Signature. Date and sign the civil cover sheet.

Page 9 of 9

